U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 21, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Thermolife International LLC v. Andrei Iancu,
U.S. Patent & Trademark Office,
S.Ct. No. 20-0150

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 10,
2020, and placed on the docket on August 13, 2020. The government’s response is due on
September 14, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 14, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0150
THERMOLIFE INTERNATIONAL LLC
ANDREI IANCU, U.S. PATENT & TRADEMARK
OFFICE

ROBERT JARED GAJARSA
LATHAM & WATKINS LLP
555 11TH STREET, NW
WASHINGTON, DC 20004
202-637-2208
ROBERT.GAJARSA@LW.COM

